App. 1
No. CR-08 00560 RMW PVT
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
THE UNITED STATES OF AMERICA
vs.
HASSAN ABPIKAR

INDICTMENT
COUNTS ONE-THREE 18 U.S.C. § 1015(A) - False
Statement Under Oath Re­
lating to Naturalization or
Citizenship
A true bill.
/s/ Ramona Wills
Foreperson

Filed in open court this 20 day of August A.D. 2008
/s/ Patricia V. Thumbuld
United States Magistrate Judge

Bail. $

no process

App. 2
[SEAL]
______
I hereby certify that the annexed
instrument is a true and correct copy
of the original on file in my office.
ATTEST:
SUSAN Y.SOONG
Clerk U.S. District Court
Northern District of California
by /s/ Diane Miyaslio
Deputy Clerk
Date: 9/23/2019
JOSEPH P. RUSSONIELLO (CSBN 44332)
United States Attorney
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
UNITED STATES
OF AMERICA,
Plaintiff,
v.
HASSAN ABPIKAR,
Defendant.

)
)
)
)
)
)
)
)
)

No. CR-08 00560 RMW
PVT
VIOLATIONS: 18 U.S.C.
§1015(a) - False Statement
Under Oath Relating to
Naturalization or
Citizenship
SAN JOSE VENUE

r

App. 3
INDICTMENT
(Filed Aug. 20, 2008)
The Grand Jury charges:
COUNT ONE: (18 U.S.C. § 1015(a) - False Statement
Under Oath Relating to Naturalization or Citizenship)
On or about November 29, 2004, in the Northern
District of California, the defendant,
HASSAN ABPIKAR,
did knowingly make a false statement under oath, in
any case, proceeding, and matter relating to, and un­
der, and by virtue of any law of the United States, re­
lating to naturalization, citizenship, and registry of
aliens, by failing to disclose in his Application for Nat­
uralization his prior 1980 felony conviction in the
State of Oklahoma for Telephoning a Bomb Threat, in
violation of Title 18, United States Code, section
1015(a).
COUNT TWO: (18 U.S.C. § 1015(a) - False Statement
Under Oath Relating to Naturalization or Citizenship)
On or about November 29, 2004, in the Northern
District of California, the defendant,
HASSAN ABPIKAR,
did knowingly make a false statement under oath, in
any case, proceeding, and matter relating to, and un­
der, and by virtue of any law of the United States, re­
lating to naturalization, citizenship, and registry of
aliens, by falsely stating in his Application for

App. 4
Naturalization that his home address was “3254 Fleur
De Lis Ct., San Jose, Calif.in violation of Title 18,
United States Code, section 1015(a).
COUNT THREE: (18 U.S.C. § 1015(a) - False State­
ment Under Oath Relating to Naturalization or Citi­
zenship)
On or about May 18,2005, in the Northern District
of California, the defendant,
HASSAN ABPIKAR,
did knowingly make a false statement under oath, in
any case, proceeding, and matter relating to, and un­
der, and by virtue of any law of the United States, re­
lating to naturalization, citizenship, and registry of
aliens, by certifying under penalty of perjury under the
laws of America that the contents of his naturalization
application were true and correct to the best of his
knowledge and belief, in violation of Title 18, United
States Code, section 1015(a).
DATED: August 20, 2008

A TRUE BILL.
/s/ Ramona Wills

FOREPERSON

App. 5
JOSEPH P. RUSSONIELLO
United States Attorney
/s/ Matthew A. Parrella______
MATTHEW A. PARRELLA
Chief, San Jose Branch
(Approved as to form: /s/ Daniel R. Kaleba
AUSA DANIEL R. KALEBA

App. 6
AO 257 (Rev. 6/78)
DEFENDANT INFORMATION RELATIVE TO A CRIMINAL ACTION - IN U.S. DISTRICT COURT
Name of District Court, and/or Judge/
BY: □ COMPLAINT □ INFORMATION 0 INDICTMENT □ SUPERSEDING
Magistrate Location
OFFENSE CHARGED
NORTHERN DISTRICT OF CALIFORNIA
Counts 1-3
DEFENDANT
Title 18, U.S.C. § 1015(a) - False Statement Under □ Petty □ Minor
- HASSAN ABPIKAR DISTRICT COURT
□
Misdemeanor
0
Felony
Oath Relating to Naturalization or Citizenship
NUMBER CR-08-00560 RMW PVT
PENALTY:
DEFENDANT
$250,000 fine
5 years imprisonment
IS NOT IN CUSTODY
3 years supervised release $100 special assessment fee
1)
□
Has not been arrested, pending outcome
PROCEEDING
this proceeding. If not detained give date any prior
Name of Complaintant Agency, or Person (& Title, if any)____________________
summons was served on above charges —►_______
ICE - DWAYNE SANCHEZ
2) □ Is a Fugitive
□ person is awaiting trial in another Federal or State Court, give name of court
3) □ Is on Bail or Release from (show District)
□ this person/proceeding is transferred from another district per (circle one)
IS IN CUSTODY
FRCrP 20, 21, or 40. Show District_______________________________________
4) 0 On this charge
□ this is a reprosecution of charges previously dismissed which were dismissed
5) □ On another conviction □ Fed’l □ State
SHOW DOCKET NO.
on motion of □ U.S. Att’y □ Defense
6) □ Awaiting trial on other charges If answer to
□ this prosecution relates to a pending case involving this same defendant
(6) is “Yes”, show name of institution__________
□ prior proceedings or appearance(s) before U.S. Magistrate regarding this
Has detainer been filed? □ Yes □ No
- MAGISTRATE CASE NO.
defendant were recorded under
.Month/Day/Year
If ”Yes” give date filed _
Name and Office of Person Furnishing
DATE OF ARREST JOSEPH P. RUSSONIELLO
Information on THIS FORM
Or ... if Arresting Agency & Warrant were not
0 U.S. Atty. □ Other U.S. Agency
DATE TRANSFERRED — Month/Day/Year
TO U.S. CUSTODY
DAN KALEBA
Name of Asst. U.S. Att’y (if assigned)
□ This report amends AO previously submitted
ADDITIONAL INFORMATION OR COMMENTS
*Where defendant previously apprehended on
PROCESS
complaint,
no new summons or warrant needed,
□ SUMMONS 0 NO PROCESS*
since Magistrate has scheduled arraignment
□ WARRANT Bail Amount:_________
If Summons, complete following: □ Arraignment □ Initial Appearance
Date/Time:
Defendant Address:
Before Judge:
Comments:

CERTIFIED
SUPERSEDING
INDICTMENT

App. 7
No. CR-08 00560
[RMW]
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
THE UNITED STATES OF AMERICA
vs.
HAS SAN ABPIKAR
SUPERSEDING INDICTMENT
*SEE ATTACHED*
A true bill.
/s/ [[Illegible]
Foreperson

Filed in open court this 24 day of November A.D.
2009
/s/ [Illegible]
UNITED STATES
MAGISTRATE JUDGE
"

Bail. $

no process

App. 8
[SEAL]
I hereby certify that the annexed
instrument is a true and correct copy
of the original on file in my office.
ATTEST
Susan Y. Soong
Clerk, U.S. District Court
Northern District of California
by /s/ Diane Miyaslio
Deputy Clerk
Date: 9/23/2019

ATTACHMENT TO PENALTY SHEET
U.S.
v.
HASSAN ABPIKAR
COUNTS ONE AND FOUR: Title 18, United States
Code, Section 1001(a)(l)-Falsifying and Concealing a
Material Fact in a Matter Before a Government
Agency
COUNTS TWO AND FIVE: Title 18, United States
Code, Section § 1015(a) - False Statement Under Oath
Relating to Naturalization or Citizenship
COUNTS THREE AND SIX: Title 18, United States
Code, Section § 1621 - Perjury

.

App. 9
JOSEPH P. RUSSONIELLO (CSBN 44332)
United States Attorney
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
UNITED STATES
OF AMERICA,
Plaintiff,
v.
HASSAN ABPIKAR,
Defendant.

) No. CR 08-00560 RMW
)
)
)
)
)
)
)
)
)
)
)
)
)

VIOLATIONS: 18 U.S.C.
§ 1001(a)(1) - Falsifying
and Concealing a Material
Fact in a Matter Before a
Governmental Agency
(Two Counts); 18 U.S.C.
§ 1015(a) - False Statement
Under Oath Relating to
Naturalization or
Citizenship (Two Counts);
18 U.S.C. § 1621 - Perjury
(Two Counts)

) SAN JOSE VENUE
SUPERSEDING INDICTMENT
(Filed Nov. 24, 2009)
The Grand Jury charges:
COUNT ONE: (18 U.S.C. § 1001(a)(1) - Falsifying and
Concealing a Material Fact in a Matter Before a Gov­
ernment Agency)

App. 10
1. On or about November 29, 2004, in the North­
ern District of California, the defendant,
HASSAN ABPIKAR,
in a matter within the jurisdiction of the executive
branch of the government of the United States, did
knowingly and willfully falsify, conceal, and cover up a
material fact by trick, scheme, and device, by failing to
disclose the following information in response to ques­
tions on a Form N-400 Application submitted to the
Department of Homeland Security:
a.

Form N-400 Application for Naturalization,
Question 10.D.17, states: “Have you EVER
been charged with committing any crime or
offense?” Defendant responded in the affirma­
tive and disclosed certain prior criminal con­
duct and court proceedings, but failed to
disclose that on or about December 6,1979, he
was charged by the State of Oklahoma for the
offense of Telephoning a Bomb Threat;

b.

Form N-400 Application for Naturalization,
Question 10.D.17, states: “Have you EVER
been charged with committing any crime or
offense?” Defendant responded in the affirma­
tive and disclosed certain prior criminal con­
duct and court proceedings, but failed to
disclose that on or about December 7,1979, he
was charged by the State of Oklahoma for the
offense of Assault and Battery Upon a Law
Officer;

c.

Form N-400, Application for Naturalization,
Question 10.D.18, states: “Have you EVER

App. 11
been convicted of a crime or offense?” Defend­
ant responded in the affirmative and disclosed
certain prior criminal conduct and court pro­
ceedings, but failed to disclose that on or
about February 27,1980, he was convicted by
the State of Oklahoma for the offense of Tele­
phoning a Bomb Threat;
d.

Form N-400, Application for Naturalization,
Question 10.D.18, states: “Have you EVER
been convicted of a crime or offense?” Defend­
ant responded in the affirmative and disclosed
certain prior criminal conduct and court pro­
ceedings, but failed to disclose that on or
about February 27, 1980, he was convicted by
the State of Oklahoma for the offense of As­
sault and Battery Upon a Law Officer;

e.

Form N-400, Application for Naturalization,
Question 10.D.20, states: “Have you EVER re­
ceived a suspended sentence, been placed on
probation, or been paroled?” Defendant re­
sponded in the affirmative and disclosed cer­
tain prior criminal conduct and court
proceedings, but failed to disclose that on or
about February 27, 1980, he received a sus­
pended sentence by the State of Oklahoma of
2 years imprisonment for the offense of Tele­
phoning a Bomb Threat;

f.

Form N-400, Application for Naturalization,
Question 10.D.20, states: “Have you EVER re­
ceived a suspended sentence, been placed on
probation, or been paroled?” Defendant re­
sponded in the affirmative and disclosed cer­
tain prior criminal conduct and court

App. 12
proceedings, but failed to disclose that on or
about February 27, 1980, he received a sus­
pended sentence by the State of Oklahoma of
6 months imprisonment for the offense of As­
sault and Battery Upon a Law Officer;
g-

Form N-400, Application for Naturalization,
Question 10.D.20, states: “Have you EVER re­
ceived a suspended sentence, been placed on
probation, or been paroled?” Defendant re­
sponded in the affirmative and disclosed cer­
tain prior criminal conduct and court
proceedings, but failed to disclose that on or
about October 29, 1993, he received a sus­
pended sentence by the State of California of
60 days imprisonment for the offense of Act­
ing as Dealer/Manufacturer without a Li­
cense;

All in violation of Title 18, United States Code, sec­
tion 1001(a)(1).
COUNT TWO: (18 U.S.C. § 1015(a) - False Statement
Under Oath Relating to Naturalization or Citizenship)
2. The allegations contained in Paragraph 1 are
re-alleged and hereby incorporated herein.
3. On or about November 29, 2004, in the North­
ern District of California, the defendant,
HASSAN ABPIKAR,
did knowingly make a false statement under oath, in a
case, proceeding, and matter relating to, and under,
and by virtue of any law of the United States, relating
to naturalization, citizenship, and registry of aliens, to

App. 13
wit: the defendant submitted a signed written Form N400 Application for Naturalization to the Department
of Homeland Security, which contained the following
false statements:
a.

The defendant falsely represented that he had
disclosed relevant prior criminal conduct and
court proceedings in response to Questions
10D.17,18, and 20, when in fact he had failed
to do so, as described above in Paragraph 1;

b.

Form N-400, Application for Naturalization,
Question 4. A requires the identification of the
applicant’s home address. The defendant
falsely stated that his home address was
“3254 Fleur De Lis Ct., San Jose, Calif.” at the
time of the filing of the application.

c.

Form N-400, Question 3.G asks for the appli­
cant’s marital status. The defendant falsely
checked the box marked “Single, Never Mar­
ried” even though he had previously been
married and divorced.

All in violation of Title 18, United States Code, sec­
tion 1015(a).
COUNT THREE: (18 U.S.C. § 1621 - Perjury)
4. The allegations contained in Paragraph 1 are
re-alleged and hereby incorporated herein.
5. On or about the November 29, 2004, in the
Northern District of California, the defendant,
HASSAN ABPIKAR,

(

App. 14
having taken an oath to provide truthful written testi­
mony in a Form N-400 Application for Naturalization
filed with the United States Department of Homeland
Security, knowingly made a false material declaration,
to wit:
а.

The defendant falsely represented that he had
disclosed relevant prior criminal conduct and
court proceedings in response to Questions
10D.17,18, and 20, when in fact he had failed
to do so, as described above in Paragraph 1.

All in violation of Title 18, United States Code,
Section § 1621.
COUNT FOUR: (18 U.S.C. § 1001(a)(1) - Falsifying
and Concealing a Material Fact in a Matter Before a
Government Agency)
б. On or about May 18, 2005, in the Northern
District of California, the defendant,
HASSAN ABPIKAR,
in a matter within the jurisdiction of the executive
branch of the government of the United States, did
knowingly and willfully falsify, conceal, and cover up a
material fact by trick, scheme, and device, by failing to
disclose the following information in response to ques­
tions on a Form N-400 Application submitted to the
Department of Homeland Security:
a.

Form N-400 Application for Naturalization,
Question 10.D.17, states: “Have you EVER
been charged with committing any crime or
offense?” Defendant responded in the

App. 15
affirmative and disclosed certain prior crimi­
nal conduct and court proceedings, but failed
to disclose that on or about December 6,1979,
he was charged by the State of Oklahoma for
the offense of Telephoning a Bomb Threat;
b.

Form N-400 Application for Naturalization,
Question 10.D.17, states: “Have you EVER
been charged with committing any crime or
offense?” Defendant responded in the affirma­
tive and disclosed certain prior criminal con­
duct and court proceedings, but failed to
disclose that on or about December 7,1979, he
was charged by the State of Oklahoma for the
offense of Assault and Battery Upon a Law
Officer;

c.

Form N-400, Application for Naturalization,
Question 10.D.18, states: “Have you EVER
been convicted of a crime or offense?” Defend­
ant responded in the affirmative and disclosed
certain prior criminal conduct and court pro­
ceedings, but failed to disclose that on or
about February 27,1980, he was convicted by
the State of Oklahoma for the offense of Tele­
phoning a Bomb Threat;

d.

Form N-400, Application for Naturalization,
Question 10.D.18, states: “Have you EVER
been convicted of a crime or offense?” Defend­
ant responded in the affirmative and disclosed
certain prior criminal conduct and court pro­
ceedings, but failed to disclose that on or
about February 27,1980, he was convicted by
the State of Oklahoma for the offense of As­
sault and Battery Upon a Law Officer;

App. 16
e.

Form N-400, Application for Naturalization,
Question 10.D.20, states: “Have you EVER re­
ceived a suspended sentence, been placed on
probation, or been paroled?” Defendant re­
sponded in the affirmative and disclosed cer­
tain prior criminal conduct and court
proceedings, but failed to disclose that on or
about February 27, 1980, he received a sus­
pended sentence by the State of Oklahoma of
2 years imprisonment for the offense of Tele­
phoning a Bomb Threat;

f.

Form N-400, Application for Naturalization,
Question 10.D.20, states: “Have you EVER re­
ceived a suspended sentence, been placed on
probation, or been paroled?” Defendant re­
sponded in the affirmative and disclosed cer­
tain prior criminal conduct and court
proceedings, but failed to disclose that on or
about February 27, 1980, he received a sus­
pended sentence by the State of Oklahoma of
6 months imprisonment for the offense of As­
sault and Battery Upon a Law Officer;

g-

Form N-400, Application for Naturalization,
Question 10.D.20, states: “Have you EVER re­
ceived a suspended sentence, been placed on
probation, or been paroled?” Defendant re­
sponded in the affirmative and disclosed cer­
tain prior criminal conduct and court
proceedings, but failed to disclose that on or
about October 29, 1993, he received a sus­
pended sentence by the State of California of
60 days imprisonment for the offense of Act­
ing as Dealer/Manufacturer without a Li­
cense;

App. 17
h.

Form N-400, Application for Naturalization,
Question 10.D.16, states: “Have you EVER
been arrested, cited, or detained by a law en­
forcement officer (including INS and military
officers) for any reason)?” Defendant failed to
disclose that on May 14, 2005, he was ar­
rested, cited, and detained by the State of Cal­
ifornia for the offenses Burglary - First
Degree, Receiving Stolen Property, Possessing
Burglary Tools, and Theft of Personal Prop­
erty/Petty Theft;

All in violation of Title 18, United States Code, sec­
tion 1001(a)(1).
COUNT FIVE: (18 U.S.C. § 1015(a) - False Statement
Under Oath Relating to Naturalization or Citizenship)
7. The allegations contained in Paragraph 6 are
re-alleged and hereby incorporated herein.
8. On or about May 18, 2005, in the Northern
District of California, the defendant,
HASSAN ABPIKAR,
did knowingly make a false statement under oath, in a
case, proceeding, and matter relating to, and under,
and by virtue of any law of the United States, relating
to naturalization, citizenship, and registry of aliens, to
wit: the defendant affirmed a previously submitted,
signed written Form N-400 Application for Naturaliza­
tion to the Department of Homeland Security, which
contained the following false statements:

App. 18
a.

The defendant falsely represented that he had
disclosed prior criminal conduct and court
proceedings in response to Questions 10D.16,
17,18, and 20, when in fact he had failed to do
so, as described above in Paragraph 6;

b.

Form N-400, Application for Naturalization,
Question 4.A requires the identification of the
applicant’s home address. The defendant
falsely affirmed that his home address was
“3254 Fleur De Lis Ct., San Jose, Calif” at the
time of the filing of the application.

c.

Form N-400, Question 3.G asks for the appli­
cant’s marital status. The defendant falsely
checked the box marked “Single, Never Mar­
ried” even though he had previously been
married and divorced.

All in violation of Title 18, United States Code, sec­
tion 1015(a).
COUNT SIX: (18 U.S.C. § 1621 - Perjury)
9. The allegations contained in Paragraph 6 are
re-alleged and hereby incorporated herein.
10. On or about the May 18, 2005, in the North­
ern District of California, the defendant,
HASSAN ABPIKAR
having taken an oath to testify truthfully before an of­
ficer with the Department of Homeland Security in a
naturalization interview in the Northern District of
California, knowingly made a false material declara­
tion, to wit:

App. 19
a.

The defendant falsely represented that he had
disclosed relevant prior criminal conduct and
court proceedings in response to Questions
10D.16,17,18, and 20 in a previously submit­
ted, signed written Form N-400 Application
for Naturalization to the Department of
Homeland Security, when in fact he had failed
to do so, as described above in Paragraph 6;

All in violation of Title 18, United States Code,
Section § 1621.
DATED: August 24, 2009

A TRUE BILL.
/s/

[Illegible]

FOREPERSON
JOSEPH P. RUSSONIELLO
United States Attorney
/s/ Jeffrey D. Nedrow____________
JEFFREY D. NEDROW
Deputy Chief, San Jose Branch
(Approved as to form: /s/ Daniel R. Kaleba
AUSA KALEBA

App. 20
AO 257 (Rev. 6/78)
DEFENDANT INFORMATION RELATIVE TO A CRIMINAL ACTION - IN U.S. DISTRICT COURT
Name of District Court, and/or Judge/
RY: n COMPLAINT □ INFORMATION El INDICTMENT El SUPERSEDING
Magistrate Location
OFFENSE CHARGED
NORTHERN DISTRICT OF CALIFORNIA
**SEE ATTACHMENT**
DEFENDANT
□ Petty □ Minor
- HASSAN ABPIKAR DISTRICT COURT
□ Misdemeanor 0 Felony
NUMBER CR-08-0560RMW
PENALTY:
DEFENDANT
**SEE ATTACHMENT**
IS NOT IN CUSTODY
1) □ Has not been arrested, pending outcome
PROCEEDING
this
proceeding. If not detained give date any prior
Name of Complaintant Agency, or Person (& Title, if any)____________________
summons was served on above charges —*•_______
S/A - DWAYNE SANCHEZ. ICE.
2) □ Is a Fugitive
□ person is awaiting trial in another Federal or State Court, give name of court
3) 0 Is on Bail or Release from (show District)
NORTHERN DISTRICT OF CALIFORNIA
□ this person/proceeding is transferred from another district per (circle one)
IS IN CUSTODY
FRCrP 20, 21, or 40. Show District ______________________________________
4)
□ On this charge
□ this is a reprosecution of charges previously dismissed which were dismissed
5)
□ On another conviction □ Fed’l □ State
SHOW DOCKET NO.
on motion of □ U.S. Att’y □ Defense
6) □ Awaiting trial on other charges If answer to
□ this prosecution relates to a pending case involving this same defendant
(6) is “Yes”, show name of institution__________
□ prior proceedings or appearance(s) before U.S. Magistrate regarding this
Has detainer been filed? □ Yes □ No
- MAGISTRATE CASE NO.
defendant were recorded under
Month/Day/Year
If “Yes” give date filed _
Name and Office of Person Furnishing
DATE OF ARREST —
JOSEPH P. RUSSONIELLO
Information on THIS FORM
Or ... if Arresting Agency & Warrant were not
0 U.S. Att’y □ Other U.S. Agency
Month/Day/Year
DATE TRANSFERRED
TO
U.S.
CUSTODY
DANIEL KALEBA
Name of Asst. U.S. Att’y (if assigned)
□ This report amends AO previously submitted
ADDITIONAL INFORMATION OR COMMENTS
*Where defendant previously apprehended on
PROCESS
complaint,
no new summons or warrant needed,
□ SUMMONS 0 NO PROCESS*
since Magistrate has scheduled arraignment
□ WARRANT Bail Amount:_________
If Summons, complete following: □ Arraignment □ Initial Appearance
Date/Time:
Defendant Address:
Before Judge:
Comments:

App. 21
ATTACHMENT TO PENALTY SHEET
U.S.
v.
HASSAN ABPIKAR
COUNT ONE AND FOUR: Title 18, United States
Code, Section 1001(a)(l)-Falsifying and Concealing a
Material Fact in a Matter Before a Government
Agency
Penalties:

Five years imprisonment;
$250,000 fine
Three years supervised release;
$100 special assessment.

COUNTS TWO AND FIVE: Title 18, United States
Code, Section § 1015(a) - False Statement Under Oath
Relating to Naturalization or Citizenship
Penalties:

Five years imprisonment;
$250,000 fine
Three years supervised release;
$100 special assessment.

COUNTS THREE AND SIX: Title 18, United States
Code, Section § 1621 - Perjury
Penalties:

Five years imprisonment;
$250,000 fine
Three years supervised release;
$100 special assessment.

EXHIBIT B

App. 22
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.
HASSAN ABPIKAR,

No. 18-16714
D.C. Nos.
5:15-cv-05104-EJD
5:08-cr-00560-EJD-l
Northern District of
California, San Jose

Defendant-Appellant. ORDER
(Filed Apr. 25, 2019)
Before:

O’SCANNLAIN and GOULD, Circuit Judges.

The request for a certificate of appealability
(Docket Entry No. 3) is denied because appellant has
not shown that “jurists of reason would find it debata­
ble whether the [section 2255 motion] states a valid
claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473,484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134,
140-41 (2012); Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
Any pending motions are denied as moot.
DENIED.

EXHIBIT C

App. 23
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16714

UNITED STATES
OF AMERICA,

D.C. Nos.
5:15-cv-05104-EJD
5:08-cr-00560-EJD-l

Plaintiff-Appellee,
v.

Northern District of
California, San Jose

HASSAN ABPIKAR,
Defendant-Appellant.

ORDER
(Filed Jun. 27, 2019)

Before: SILVERMAN
Judges.

and

WATFORD

Circuit

Appellant’s motion for reconsideration en banc
(Docket Entry No. 5) is denied on behalf of the court.
See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed
case.

EXHIBIT D

App. 24
I hereby certify that the an­
nexed instrument is a true and
correct copy of the original on
file in my office.
ATTEST:
SUSAN Y.SOONG
Clerk, U.S. District Court
Northern District of California
By /s/ Betty Walton
Deputy Clerk
Date OCT 30 2019
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
UNITED STATES
OF AMERICA,
Plaintiff,
v.
HASSAN ABPIKAR,
Defendant.

Case No. 08-cr-00560-EJD
ORDER DENYING
DEFENDANT’S
MOTION PURSUANT
TO 28 U.S.C. § 2255;
DENYING CERTIFICATE
OF APPEALABILITY
(Filed Aug. 15,2018)
Re: Dkt. No. 329

In the motion presently before the Court, Defend­
ant Hassan Abpikar (“Defendant”), proceeding pro se,
seeks to vacate and set aside his federal judgment of
conviction and sentence pursuant to 28 U.S.C. § 2255.
Dkt. No. 329 (“Mot.”). The Court has carefully reviewed

App. 25
the relevant documents and pertinent law and finds
that, on this record, Defendant is not entitled to relief.
For the reasons set forth below, his motion is DENIED.
I.

-

BACKGROUND

On November 24,2009, Defendant was indicted on
two counts of falsifying and concealing a material fact
in a matter before a government agency in violation of
18 U.S.C. § 1001(a)(1); two counts of making a false
statement under oath relating to naturalization or citizenship in violation of 18 U.S.C. § 1015(a); and two
counts of perjury in violation of 18 U.S.C. § 1621. Dkt.
No. 69. The case centered on allegedly false statements
that Defendant made in his naturalization application
and interview regarding his criminal history, marital
status, and resident address. Defendant’s jury trial be­
gan on October 26, 2010 and ended on November 2,
2010. Dkt. Nos. 206, 210. The same day, the jury re­
turned guilty verdicts against Defendant on all six
counts. Dkt. No. 212. On April 11, 2011, U.S. District
Judge Ronald M. Whyte sentenced Defendant to 36
months of imprisonment, three years of supervised re­
lease, a $5,000 fine, and a $600 special assessment.
Dkt. No. 258.
Defendant appealed his conviction, and the Ninth
Circuit affirmed on July 25, 2015. Dkt. No. 321. On
January 12, 2015, the U.S. Supreme Court denied De­
fendant’s petition for writ of certiorari. Dkt. No. 328.
On November 6, 2015, Defendant filed the instant
pro se § 2255 motion. See Mot. On June 27, 2016, the

App. 26
government filed a response. Dkt. No. 348 (“Resp”). On
November 3, 2016, this case was reassigned to the un­
dersigned judge. Dkt. No. 354. On November 23, 2016,
Defendant filed a reply. Dkt. No. 356 (“Reply”).
II.

LEGAL STANDARD

Section 2255 authorizes a “prisoner in custody un­
der sentence of a court established by Act of Congress”
to “move the court which imposed the sentence to va­
cate, set aside or correct the sentence” based on a vio­
lation of federal law. 28 U.S.C. § 2255(a). Relief under
§ 2255(a) is limited to the particular grounds listed in
the statute—namely, “that the sentence was imposed
in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to im­
pose such sentence, or that the sentence was in excess
of the maximum authorized by law, or is otherwise sub­
ject to collateral attack.” See United States v. Berry.
624 F.3d 1031,1038 (9th Cir. 2010). If a court finds er­
ror on one of these enumerated grounds, then “the
court shall vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant a
new trial or correct the sentence as may appear appro­
priate.” 28 U.S.C. § 2255(b).
Following the submission of a § 2255 motion, the
court must grant an evidentiary hearing “[u]nless the
motions and the files and records of the case conclu­
sively show that the prisoner is entitled to no relief.”
Id.: see also United States v. Blaylock. 20 F.3d 1458,
1465 (9th Cir. 1994). In other words, a court need not

App. 27
hold an evidentiary hearing where the prisoner’s alle­
gations, when viewed against the record, either do not
state a claim for relief or are so palpably incredible as
to warrant summary dismissal. United States v. How­
ard. 381 F.3d 873, 877 (9th Cir. 2004). “[C]onclusory
statements in a § 2255 motion are not enough to re­
quire a hearing.” United States v. Johnson. 988 F.2d
941, 945 (9th Cir. 1993) (quoting United States v.
Hearst. 638 F.2d 1190,1194 (9th Cir. 1980)).
III. DISCUSSION
Defendant raises thirteen grounds for relief under
§ 2255. The Court slightly reorders them for conven­
ience of analysis. The thirteen grounds are as follows:
(1) insufficiency of the evidence, (2) violation of the
Speedy Trial Act, (3) untimeliness of the supersed­
ing indictment, (4) defectiveness of jury instructions,
(5) impropriety of peremptory challenges during jury
selection, (6) use of perjured testimony, (7) ineffective
assistance of trial counsel, (8) failure of trial counsel to
mention the element of materiality, (9) ineffective as­
sistance of appellate counsel, (10) invalidity of the
superseding indictment, (11) vindictive prosecution,
(12) violation of due process, and (13) unconstitution­
ality of sentence. Mot. at 2-3. Each claim is analyzed
below.

App. 28
A. Insufficient Evidence. Speedy Trial, and Un­
timely Superseding Indictment Claims
The Court analyzes Defendant’s first three claims
together. First, Defendant contends that the govern­
ment did not present sufficient evidence to prove the
element of materiality required to convict Defendant
of falsifying and concealing a material fact in a matter
before a government agency in violation of 18 U.S.C.
§ 1001(a)(1) or perjury in violation of 18 U.S.C. § 1621.
Mot. at 14-17. Second, Defendant asserts that the su­
perseding indictment should have been dismissed be­
cause Defendant’s trial did not commence within the
time prescribed by the Speedy Trial Act, 18 U.S.C.
§ 3161. Mot. at 17-26. Third, Defendant argues that
the charges in the superseding indictment were barred
by the five year statute of limitations in 18 U.S.C.
§ 3282(a). Mot. at 30.
Defendant has already raised these precise claims
on direct appeal before the Ninth Circuit. A § 2255 mo­
tion is not an opportunity for a second appeal. Berry.
624 F.3d at 1038; see also United States v. Addonizio.
442 U.S. 178, 184 (1979) (explaining that § 2255 does
not “modify the basic distinction between direct review
and collateral review”). A defendant who raises an is­
sue on direct appeal may not attempt to relitigate that
issue in a § 2255 motion. United States v. Haves. 231
F.3d 1132,1139 (9th Cir. 2000); United States v. Redd.
759 F.2d 699, 701 (9th Cir. 1985). Here, the Ninth Cir­
cuit explicitly addressed and rejected Defendant’s claims,
holding that the government’s evidence sufficiently sup­
ported the convictions under 18 U.S.C. § 1001(a)(1) and

App. 29
§ 1621, that there was no Speedy Trial Act violation,
and that the charges in the superseding indictment
were not barred by the statute of limitations. Dkt. No.
321 at 2-5. This Court is not at liberty to revisit the
Ninth Circuit’s ruling. See also Buck v. Berrvhill, 869
F.3d 1040, 1050 (9th Cir. 2017) (“[A] court is generally
precluded from reconsidering an issue that has already
been decided by ... a higher court in the identical
case.” (quoting Thomas v. Bible. 983 F.2d 152,154 (9th
Cir. 1993)). Thus, Defendant is not entitled to further
judicial review of his claims challenging the sufficiency
of the evidence, compliance with the Speedy Trial Act,
or the timeliness of the charges in the superseding in­
dictment.1
B. Defective Jury Instructions Claim
Defendant’s fourth claim is that there was an er­
ror in the jury instructions with regard to the two
counts of falsifying and concealing a material fact in
a matter before a government agency in violation of
18 U.S.C. § 1001(a)(1). Mot. at 26-28. Specifically, De­
fendant argues that the jury was not instructed that
materiality is a necessary element of the offense that
the government must prove beyond a reasonable
doubt. Id. at 27. Defendant also contends that his trial
counsel erred in failing to object to the improper jury

1 To the extent that Defendant raises slight variations on his
previous arguments before the Ninth Circuit, those variations are
considered below in the discussion of ineffective assistance of trial
or appellate counsel.

App. 30
instructions and that Defendant was prejudiced as a
result of the error. Id.
Because Defendant could have raised this issue on
direct appeal but failed to do so, his claim has been procedurally defaulted. Bouslev v. United States. 523 U.S.
614, 622 (1998). Thus, in order for this Court to enter­
tain the claim in this § 2255 proceeding, Defendant
must demonstrate cause for failing to raise the issue
and resulting prejudice. United States v. Fradv. 456
U.S. 152, 167-68 (1982). “[T]he mere fact that counsel
failed to recognize the factual or legal basis for a claim,
or failed to raise the claim despite recognizing it, does
not constitute cause for a procedural default.” Murray
v. Carrier. 477 U.S. 478, 486 (1986). Where, as here, a
defendant relies on attorney error to establish cause,
that error must rise to the level of ineffective assis­
tance of counsel. Id. at 492.
Ineffective assistance of counsel is subject to the
two-prong test set forth in Strickland v. Washington.
466 U.S. 668,687 (1984). First, a defendant must demon­
strate that counsel’s performance was deficient, i.e.,
that it “so undermined the proper functioning of the
adversarial process that the [proceedings] cannot be
relied on as having produced a just result.” Id. at 68687. In making that assessment, “a court must indulge
a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assis­
tance; that is, the defendant must overcome the pre­
sumption that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’ ” Id.
at 689 (citation omitted). Second, the defendant must

App. 31
demonstrate that counsel’s deficient performance prej­
udiced him, i.e., that “there is a reasonable probability
that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” IcL at
694. Courts need not address both prongs if the defend­
ant has made an insufficient showing under one of the
prongs. IcL at 697 (“[T]here is no reason for a court de­
ciding an ineffective assistance claim ... to address
both components of the inquiry if the defendant makes
an insufficient showing on one.”).
Here, Defendant cannot show prejudice because
he has not identified any error in the jury instructions.
The relevant portion of the criminal statute at issue
punishes “whoever, in any matter within the juris­
diction of the executive, legislative, or judicial branch
of the Government of the United States, knowingly
and willfully falsifies, conceals, or covers up by any
trick, scheme, or device a material fact.” 18 U.S.C.
§ 1001(a)(1). Jury Instruction No. 13 recites these ele­
ments. Dkt. No. 211 at 14-16. With regard to material­
ity in particular, the instruction states that the
government must prove that “ [Defendant’s] statement
was material to the United States Department of
Homeland Security’s!] activities or decisions.” IcL at
14. Moreover, the instruction provides that “[a] state­
ment is material if it had a natural tendency to in­
fluence, or was capable of influencing, the agency’s
decisions or activities.” IcL at 16. Contrary to Defend­
ant’s suggestion, Mot. at 27, the jury was properly in­
structed to decide the question of materiality. United
States v.Gaudin. 515 U.S. 506,522-23 (1995). Thus, the

App. 32
Court rejects Defendant’s claim that the jury instruc­
tions were erroneous.
C. Peremptory Challenges Claim
Defendant’s fifth claim alleges that the govern­
ment violated Defendant’s constitutional rights by
striking three Iranian jurors based solely on their race.
Mot. at 28. To excuse his procedural default for failing
to raise this claim on direct appeal, Defendant again
contends that his trial counsel provided ineffective as­
sistance. See Murray. 477 U.S. at 486. According to De­
fendant, his attorney not only failed to object to the
government’s improper peremptory challenges but
also affirmatively prevented Defendant from objecting.
Mot. at 28. Even accepting Defendant’s allegations of
his attorney’s actions, he fails both prongs of the
Strickland test because he cannot show either that
failing to object fell below an objective standard of per­
formance or that objecting would have been substan­
tially likely to generate a different result. 466 U.S. at
689, 694.
The Court begins with the relevant legal framework
regarding race-based uses of peremptory challenges.
“[T]he Equal Protection Clause forbids the prosecutor
to challenge potential jurors solely on account of their
race.” Batson v. Kentucky. 476 U.S. 79, 89 (1986). To in­
itiate a claim of discrimination in juror selection under
Batson, a defendant must first establish a prima facie
case “by showing that the totality of the relevant facts
gives rise to an inference of discriminatory purpose.”

App. 33
Id. at 93-94. The burden then shifts to the prosecution
to provide permissible race-neutral justifications for
the strikes. Johnson v. California. 545 U.S. 162, 168
(2005). This justification need not be “‘persuasive, or
even plausible’; so long as the reason is not inherently
discriminatory, it suffices.” Rice v. Collins. 546 U.S. 333,
338 (2006) (citation omitted). Once “a race-neutral ex­
planation is tendered, the trial court must then decide
. . . whether the opponent of the strike has proved pur­
poseful racial discrimination.” Purkett v. Elem. 514
U.S. 765, 767 (1995) (per curiam).
In the instant case, Defendant contests the strik­
ing of three prospective jurors: Nasrin Noori (prospec­
tive juror 18), Azam Estahbanati (prospective juror 26),
and Linda Danialy (prospective juror 29). However, one
of those jurors—Ms. Estahbanti—was dismissed for
cause because she had a financial relationship with a
potential witness and exhibited signs that she could
not be fair in judging immigration officials or the im­
migration process. Dkt. No. 282 at 91:1992:4. There­
fore, Defendant’s potential Batson claim is limited to
Ms. Noori (prospective juror 18) and Ms. Danialy (pro­
spective juror 29). Defendant’s trial counsel had good
reason not to object to the government’s peremptory
strikes of these two jurors because the record reveals
obvious nondiscriminatory reasons for striking both
jurors. Ms. Noori stated that her husband’s naturaliza­
tion process was “not so easy” and that he is “still nag­
ging about it.” Id, at 47:6-49:9. Ms. Danialy stated that
she still has family going through the naturalization
process and that her cousin had his identity stolen

App. 34
while applying. Id. at 51:1-19. Such negative experi­
ences with the naturalization process could suggest
possible bias when judging immigration officials. See
Resp. at 16. In contrast, the other jurors who indicated
that a family member or close friend had gone through
the naturalization process described the process as
positive or, at a minimum, not frustrating. See Dkt. No.
282 at 42:24-47:5, 49:10-49:24, 51:20-53:23. In light of
this plain race-neutral justification for striking Ms.
Noori and Ms. Danialy, Defendant’s trial counsel did
not act objectively unreasonably in deciding not to ob­
ject and Defendant cannot show that raising the objec­
tion would have been substantially likely to create a
different result.
D. Perjured Testimony Claim
Defendant’s sixth claim is that the government
knowingly introduced false testimony at trial. Mot. at
29. Defendant contends that one of the government’s
witnesses—the immigration officer who interviewed
Defendant about his naturalization application—“lied
under Oath about his recollection of the events and
dates.” Id. Defendant objects that (1) the officer based
his testimony on his recent review of Defendant’s file
and (2) Defendant’s green card should have made clear
to the officer that Defendant had previously been mar­
ried. Id. at 29-30. Defendant has not shown cause or
prejudice to excuse his failure to raise this claim on di­
rect appeal.

App. 35
It is true that the government violates due process
when it knowingly presents false evidence to obtain
a conviction. See Giglio v. United States, 405 U.S.
150,153-54 (1972). Here, however, Defendant does not
identify any manner in which the immigration officer
testified falsely. That officer properly relied on his an­
notations to Defendant’s naturalization form because
he could not specifically recall his interview with De­
fendant from memory. See Fed. R. Evid. 612(a) (permit­
ting a witness to refresh his memory by reviewing a
writing before testifying or while testifying). Based on
his markings on Defendant’s naturalization form, the
officer testified that Defendant verified during the in­
terview that he had not been married. Dkt. No. 280 at
56:21-57:23. On cross-examination, the officer admit­
ted that he should have noticed that Defendant’s cate­
gory of green card indicated that Defendant had
previously been married. Id. at 116:14-17. These two
statements are not inconsistent: the second statement
merely weakens the officer’s testimony. That Defend­
ant’s trial counsel elicited the second statement from
the government’s witness tends to show effective advo­
cacy, rather than the ineffective assistance sufficient to
establish cause. See Murray. 477 U.S. at 492. Moreover,
it is difficult to see how Defendant suffered any preju­
dice when the jury had this information before it but
still found Defendant guilty. Defendant’s claim that
the government knowingly introduced perjured testi­
mony is procedurally defaulted and unsupported by
any factual evidence.

App. 36
E. Ineffective Assistance of Trial Counsel Claim
Defendant’s seventh and eighth claims assert
ineffective assistance of trial counsel. Mot. at 14, 31.
These ineffective assistance claims are properly con­
sidered on collateral review because the Ninth Circuit
declined to “consider the effectiveness of trial counsel
on direct appeal.” Dkt. No. 321 at 5. As explained above,
ineffective assistance of counsel is subject to the twoprong test set forth in Strickland. Thus, the defendant
must prove that (1) his counsel’s performance was con­
stitutionally deficient, and (2) he was prejudiced by
that deficient performance. Strickland. 466 U.S. at 68487. Importantly, “[jjudicial scrutiny of counsel’s perfor­
mance must be highly deferential,” with the court “indulg[ing] a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance.” Id. at 689. Even when attorney error is es­
tablished, the defendant “must show that there is a
reasonable probability that, but for counsel’s unprofes­
sional errors, the result of the proceeding would have
been different.” Id. at 694.
In the instant case, to support his claims for inef­
fective assistance, Defendant details a number of ac­
tions that his trial counsel did or did not take during
the course of the criminal proceedings: (1) counsel did
not object to the jury instructions or to the govern­
ment’s peremptory strikes of Iranian jurors; (2) coun­
sel did not mention to the jury that the government
had to prove all elements of the charged crimes, includ­
ing materiality, or raise certain facts relevant to mate­
riality; (3) counsel did not ask the Court to state its

App. 37
findings on the record in ruling on Defendant’s pretrial
motions; (4) counsel did not move for judgment of ac­
quittal or new trial; and (5) counsel did not adequately
raise Speedy Trial Act violations. Id. at 31-33. The
Court addresses these grounds in turn.
1. Failure to Object to Jury Instructions or
Peremptory Strikes
As discussed above, Defendant has not shown that
trial counsel’s failure to object to the jury instructions
or to object to the government’s peremptory strikes of
two Iranian jurors amounts to constitutionally ineffec­
tive assistance of counsel.
2. Failure to Emphasize Materiality Element
and Raise Certain Facts
Defendant challenges his trial attorney’s presen­
tation of the case to the jury, particularly with regard
to the element of materiality. Mot. at 14, 31. Defendant
states that his attorney “failed to mention, discuss or
argue” materiality before the jury. Id. at 14; see also id.
at 31 (noting that attorney failed to “mention!] to the
jury that ‘materiality’ is an essential elements [sic] of
the offense” (capitalization omitted)). Additionally, De­
fendant contends that his attorney should have raised
certain facts, such as the fact that Defendant had dis­
closed that he was married in a prior naturalization
application. Id. at 31.
Defendant’s trial counsel was not deficient for
choosing not to adopt these specific trial strategies. As

App. 38
a general matter, the law “allocated] to the counsel the
power to make binding decisions of trial strategy in
many areas.” Faretta v. California. 422 U.S. 806, 820
(1975). Here, Defendant’s trial counsel cannot be faulted
for failing to place as much emphasis on a particular
element as Defendant would have preferred. Defend­
ant’s trial counsel may reasonably have found the ma­
teriality point less persuasive than the point about
whether Defendant willingly or knowingly lied. Further­
more, Defendant’s trial counsel was under no obliga­
tion to bring to light the specific facts that Defendant
identifies. Defendant focuses on the fact that his 1990
naturalization application disclosed that he was mar­
ried. See Mot. at 31. Even assuming that this fact has
any bearing on the question of materiality, his trial
counsel brought forward that information in another
way: the immigration officer who interviewed Defend­
ant admitted on cross-examination that Defendant’s
category of green card indicated that Defendant had
previously been married. Dkt. No. 280 at 116:14-17.
Defendant’s trial counsel could reasonably believe that
this method of revealing the information was more ef­
fective than the alternative proposed by Defendant
here. Defendant has not shown any deficiency in his
trial counsel’s performance on this basis.
Additionally, prejudice is absent. The jury was in­
structed, as to the elements of each of the crimes with
which Defendant was charged, including the element
of materiality where applicable. See Dkt. No. 211.
Thus, the jury necessarily had to find materiality to con­
vict. See Weeks v. Angelone. 528 U.S. 225, 234 (2000)

App. 39
(“A jury is presumed to follow its instructions.”)- Here,
Defendant does not explain how shifting the emphasis
to the materiality element would have produced a dif­
ferent outcome at trial. The government did not have
to prove that Defendant’s false statements about his
marital status and resident address were material be­
cause the government’s theory of criminal liability for
those statements was limited to 18 U.S.C. § 1015(a),
which has no materiality element. United States v.
Youssef. 547 F.3d 1090,1093-95 (9th Cir. 2008) (per cu­
riam). Similarly, Defendant does not explain how intro­
ducing other pieces of evidence would have changed
the result, especially in light of the substantial evidence
that the government submitted to support materiality.
See, e.g.. Dkt. No. 280 at 61:2-16 (testifying that good
moral character determination hinges in large part on
criminal history); see also id. at 55:10-56:20 (testify­
ing that marital history information is critical because
of the risk of fraud when “people get their green cards
through marriage”); id. at 60:5-14 (testifying that
address is important because eligibility depends on
residency for a certain period of time). In these circum­
stances, Defendant has not met his burden of estab­
lishing ineffective assistance of trial counsel on this
ground.
3. Failure to Ask Court to State Findings
Defendant next contends that his trial counsel
failed to provide effective assistance because his trial
counsel did not ask the Court at the May 24,2010 hear­
ing to state its factual findings with regard to the

App. 40
rulings on Defendant’s pretrial motions- Mot. at 31. De­
fendant has not shown either deficient performance or
prejudice.
As a preliminary matter, it is unclear why Defend­
ant’s trial counsel would need to affirmatively ask
the Court to state its factual findings. Federal Rule of
Criminal Procedure 12(d) already imposes an obliga­
tion on the Court to “state its essential findings on the
record” when “factual issues are involved in deciding
a motion.” Nevertheless, because none of Defendant’s
motions were determined on the basis of facts, the
Court had no essential findings to state on the record.
For example, the Court ruled on Defendant’s motions
to dismiss, a category of motion which “is generally ‘ca­
pable of determination’ before trial ‘if it involves ques­
tions of law rather than fact.’ ” United States v. Nukida.
8 F.3d 665, 669 (9th Cir. 1993) (quoting United States
v. Shortt Accountancy Corp.. 785 F.2d 1448, 1452 (9th
Cir.), cert, denied. 478 U.S. 1Q07 (1986)). To the extent
that those motions purportedly presented factual
questions, those questions were within the province of
the jury or unsupported by factual evidence. The same
goes for Defendant’s motions requesting signed affida­
vits, motion to inspect grand jury transcripts, motion
to change venue, motion requesting unsealed tran­
scripts, and motion for extension of time. The Court
did not need to make factual findings as to those mo­
tions because they required no factual determination
for decision or because Defendant offered speculation
with no supporting facts.

App. 41
Even if the Court were to conclude that Defend­
ant’s trial attorney erred in not requesting factual findmgs, Defendant does not indicate how such factual
findings would have altered the outcome as to any par­
ticular motion. Defendant does not identify any specific
facts that the Court could or should have found that
would have had any bearing, let alone a dispositive
bearing, on the largely legal and discretionary disposi­
tions of his pretrial motions. Again, Defendant offers
nothing more than speculation. However, “[i]t is not
enough for the defendant to show that the errors had
some conceivable effect on the outcome of the pro­
ceeding”; instead, the defendant must demonstrate “a
probability sufficient to undermine confidence in the
outcome.” Strickland. 466 U.S. at 693-94. Defendant
has not met that burden here.
4. Failure to Move for Judgment of Acquit­
tal or New Trial
Defendant next argues that his trial attorney’s
failure to file motions for judgment of acquittal and for
new trial constitutes ineffective assistance. Mot. at 3233. Defendant contends that he brought a number of
legitimate legal arguments to his trial attorney’s at­
tention. Id. In Defendant’s view, there is “no valid tac­
tical reason for [his attorney] not to raise [these]
issues” or to forego filing “a ‘Motion for Judgment of
Acquittal’ based on the evidence at trial” or a ‘Motion
for New Trial. ? >5 Id. at 33 (capitalization omitted). The
Court disagrees.

App. 42
The arguments that Defendant raised with his at­
torney are the same arguments that the Court has ad­
dressed and rejected in this order. As the Ninth Circuit
has expressly held, “[c]ounsel’s failure to make a futile
motion does not constitute ineffective assistance of
counsel.” James v. Borg. 24 F.3d 20, 27 (9th Cir. 1994);
see also Rupe v. Wood. 93 F.3d 1434, 1445 (9th Cir.
1996) (stating that “the failure to take a futile action
can never be deficient performance”), cert, denied. 519
U.S. 1142 (1997). Defendant does not provide support
for his contention that any reasonable attorney would
have submitted these motions. His trial counsel’s deci­
sion not to file these motions or make the particular
arguments desired by Defendant is insufficient to over­
come the strong presumption in favor of trial counsel’s
reasonable performance. Nor has Defendant shown
that filing these motions would have created a sub­
stantial likelihood of success, especially given the fatal
weaknesses in his arguments. Therefore, Defendant’s
claim fails both prongs of the Strickland inquiry.
5. Failure to Adequately Raise Speedy Trial
Act Violations
Lastly, Defendant contends that his trial counsel
should have filed a motion to dismiss for violations of
the Speedy Trial Act, 18 U.S.C. § 3161, and should have
moved the Court to rule on Defendant’s filed Speedy
Trial motions. Mot. at 32. Defendant filed a motion to
dismiss under the Speedy Trial Act on February 12,
2010, Dkt. No. 97, and an amendment to that motion
on February 17, 2010, Dkt. No. 102. Defendant’s trial

App. 43
counsel was substituted onto the case on April 26,
2010, after Defendant had filed these Speedy Trial Act
motions. Dkt. No. 128. On May 24,2010, the Court took
those motions under submission until the government
could file a speedy trial time calculation. Dkt. No. 132.
The government filed the requested calculation on May
27, 2010, Dkt. No. 133, and the Court denied Defend­
ant’s motions on November 2, 2010, Dkt. No. 209. On
appeal, the Ninth Circuit rejected Defendant’s argu­
ment about a speedy trial continuance granted on Au­
gust 16, 2010. Dkt. No. 321 at 4-5.
Defendant’s trial counsel was not objectively un­
reasonable in deciding not to file an additional motion
to dismiss under the Speedy Trial Act or urge the
Court to rule on Defendant’s Speedy Trial Act motions.
When Defendant’s trial counsel was substituted in late
April 2010, the case had already been pending for over
a year and a half and trial was looming. At that time,
Defendant had already filed two motions to dismiss
under the Speedy Trial Act. Dkt. Nos. 97, 102. Thus,
Defendant’s trial counsel could reasonably believe that
collecting discovery and preparing for the trial that
commenced six months later on October 26, 2010 was
the top priority. Defendant has not indicated any rec­
ord evidence or outside evidence that should have put
his trial counsel on notice that further investigation of
potential Speedy Trial Act violations would be fruitful.
That conclusion has added force because his client had
already raised a host of Speedy Trial Act issues before
the Court. Moreover, given the large array of alreadypending motions filed by Defendant pro se, Defendant’s

V

App. 44
trial counsel could reasonably find that there was no
strategic reason to file more motions or ask the Court
to rule more quickly. Defendant has not shown that his
trial counsel performed in an objectively unreasonable
manner.

;

Defendant also has not demonstrated prejudice.
Defendant does not—and could not—seek to relitigate
the continuance granted on August 16, 2010. See
Hayes. 231 F.3d at 1139 (explaining that defendants
may not relitigate issues raised on direct appeal in a
§ 2255 motion). Instead, Defendant now argues the im­
propriety of other exclusions. See Mot. at 17-26. The
Speedy Trial Act requires dismissal of an indictment
when a criminal defendant’s trial does not begin within
seventy days of indictment or initial appearance, which­
ever occurs later. 18 U.S.C. §§ 3161(c)(1), 3162(a)(2).
However, delays caused by certain enumerated events
are to be excluded from the calculation of the seventyday period. Id. § 3161(h). Defendant challenges two pe­
riods of exclusion, but both fall within the allowed stat­
utory exclusions.
First, Defendant says that at least 43 days of the
83 days from March 16, 2009 to June 9, 2009 should
not have been excluded. Mot. at 18-19. Nevertheless,
U.S. Magistrate Judge Howard R. Lloyd ordered time
excluded from March 16, 2009 pending resolution of
Defendant’s competency hearing, which took place on
December 16, 2009. Dkt. Nos. 49, 133 at 2. That time
falls squarely within the Speedy Trial Act’s exclusion
of “delay resulting from any proceeding, including any
examinations, to determine the mental competency

App. 45
or physical capacity of the defendant.” 18 U.S.C.
§ 3161(h)(1)(A).2 Although Defendant seems to argue
that the 30-day maximum in another statute, 18 U.S.C.
§ 4247(b), places limits on the speedy trial calculation,
the Ninth Circuit has explicitly rejected this argu­
ment. See United States v. Davchild. 357 F.3d 1082,
1094 (9th Cir. 2004) (“[T]he time period under 18 U.S.C.
§ 4247 has no bearing on speedy trial calculations.”).3
Second, Defendant argues that the 92 days from Feb­
ruary 22, 2010 to May 24, 2010 should not have been
excluded. Mot. at 20. However, Judge Whyte held a
hearing and made the requisite on-the-record findings
that “the ends of justice served by [granting a continu­
ance] outweigh [ed] the best interest of the public and
the defendant in a speedy trial” and that “the failure
to grant such a continuance . . . would deny counsel for
the defendant. . . the reasonable time necessary for ef­
fective preparation.” 18 U.S.C. § 3161(h)(7)(A), (B)(iv);
Dkt. No. 297 at 9:7-14. Accordingly, Defendant’s argu­
ments against these exclusions are unpersuasive. The
explanations for the exclusions also counter Defend­
ant’s suggestion that the two year and two month span
from indictment to trial violated his constitutional

2 Defendant admits that the ten-day limit on transportation
time, 18 U.S.C. § 316l(h)( 1)( 17), does not apply because he was
not transported for the psychological evaluation. Mot. at 18.
3 In arguing to the contrary, Mot. at 19, Defendant draws
from a brief filed in a U.S. Supreme Court case. See Brief for Re­
spondent at 47, United States v. Tinklenberg, 563 U.S. 647 (2011),
2011 WL 175872 (“The Act Does Not Exclude The Time Beyond
Thirty Days That It Took To Conduct Respondent’s Competency
Examinations.”).

App. 46
speedy trial rights. See Mot. at 2426 (citing Barker v.
Wingo. 407 U.S. 514, 530 (1972)).
Although Defendant’s remaining Speedy Trial Act
contention—that the Court should have granted a
motion to dismiss the two counts under 18 U.S.C.
§ 1001(a) that were contained in the criminal com­
plaint but not in the original indictment, see Mot. at 24
(citing United States v. Carrasco. 257 F.3d 1045, 1052
(9th Cir. 2001))—is colorable, Defendant cannot show
any present injury. The dismissal of these two counts
would not have affected Defendant’s Guidelines range
—which was based on the two undisturbed perjury
convictions under 18 U.S.C. § 1621, Dkt. No. 239 at 2—
or Judge Whyte’s decision to depart upward from the
high end of the range for reasons unrelated to the num­
ber of underlying convictions, Dkt. No. 302 at 54:1356:22. In any event, Defendant cannot challenge his
sentence because he has served his prison time and
completed his term of supervised release. See Spencer
v. Kemna. 523 U.S. 1, 7 (1998) (“Once the convict’s sen­
tence has expired, however, some concrete and contin­
uing injury other than the now-ended incarceration . . .
must exist if the suit is to be maintained.”).
Nor does Defendant identify a concrete harm that
would befall him if the § 1001(a) convictions are not
vacated. Defendant has provided no basis to conclude
that the convictions on the remaining four counts
should be vacated, and none is apparent because the
evidence for all six counts was nearly—if not entirely
—identical. Because the perjury and § 1015(a) con­
victions remain, Defendant’s deportation proceedings

App. 47
would not be affected. Dkt. No. 357. An alien is deport­
able if he “is convicted of two or more crimes involving
moral turpitude, not arising out of a single scheme of
criminal misconduct.” 8 U.S.C. § 1227(a)(2)(A)(ii). As a
crime involving fraud, perjury appears to qualify as a
crime of moral turpitude, and Defendant has not ar­
gued otherwise. See Masaichi Ono v. Carr. 56 F.2d 772,
774 (9th Cir. 1932) (“It is not to be doubted that the
commission of perjury before the immigration officials
is a felony involving moral turpitude.”). And because
Defendant’s two perjury counts were committed on
separate dates and occasions, there is a presumption
that the crimes did not arise out of a single scheme of
criminal misconduct. Leon-Hernandez v. I.N.S., 926
F.2d 902,905 (9th Cir. 1991). Defendant has not offered
anything to rebut that presumption, let alone stated or
suggested that his arguments depend on whether the
§ 1001(a) convictions are vacated or upheld. Accord­
ingly, the Court rejects Defendant’s final claim of inef­
fective assistance of trial counsel based on failure to
raise Speedy Trial Act arguments.
In sum, Defendant’s claim of ineffective assistance
of trial counsel fails.
F.

Ineffective Assistance of Appellate Counsel
Claim

Defendant’s ninth claim asserts ineffective assis­
tance of appellate counsel. Mot. at 33. This claim is
properly reviewed as a collateral attack because it
could not have been raised on direct appeal. See Davila

App. 48
v. Davis. 137 S. Ct. 2058,2068 (2017) (explaining that
claims for ineffective assistance of appellate counsel
“necessarily must be heard in collateral proceedings”).
Like claims for ineffective assistance of trial counsel,
claims for ineffective assistance of appellate counsel
are governed by the two-part test of Strickland requir­
ing deficient performance and prejudice. Smith v. Rob­
bins. 528 U.S. 259,285 (2000). But “the right to appellate
representation does not include a right to present friv­
olous arguments to the court.” Id. at 272; Sexton v. Cozner. 679 F.3d 1150, 1157 (9th Cir. 2012) (“[W]e cannot
hold counsel ineffective for failing to raise a claim that
is meritless.”).
In this case, Defendant pinpoints three actions by
his appellate counsel: (1) counsel did not raise the issue
of ineffective assistance of trial counsel; (2) counsel did
not raise a set of issues that Defendant suggested; and
(3) counsel did not raise the same set of issues in a pe­
tition for rehearing or rehearing en banc. Mot. at 3336. The Court addresses these grounds in turn.
1. Failure to Raise Ineffective Assistance of
Trial Counsel
Defendant claims that his appellate attorney
failed to raise the claim of ineffective assistance of trial
counsel. Mot. at 35-36. Defendant is mistaken. The is­
sue of ineffective assistance of trial counsel spanned
five pages of Defendant’s opening brief. See Appellant’s
Opening Brief at 51-55, United States v. Abpikar.
583 F. App’x 780 (9th Cir. 2014), 2013 WL 6221737.

App. 49
Although his opening brief argued that the record
was sufficiently developed to decide the ineffective
assistance claim on direct appeal, id. at 52, the Ninth
Circuit declined to do so, Dkt. No. 321 at 5. Thus, De­
fendant cannot succeed on this ground.
2. Failure to Raise Particular Issues
Defendant also asserts that he sent a list of issues
to his appellate attorney and requested that his appel­
late attorney raise all of the issues on appeal. Mot. at
34. In his § 2255 motion, Defendant highlights the is­
sues of insufficiency of the evidence, Speedy Trial Act
violations, materiality, defective jury instructions, and
improper striking of jurors. Mot. at 34-35. Defendant’s
appellate attorney did raise some of these issues in De­
fendant’s opening brief, including insufficiency of the
evidence and violations of the Speedy Trial Act. See
Appellant’s Opening Brief at 16-26,43-50. Abpikar. 583
F. App’x 780.
Defendant’s appellate counsel’s decision not to
raise the remaining claims suggested by Defendant
does not automatically amount to deficient perfor­
mance. Indeed, “[c]ounsel is not necessarily ineffective
for failing to raise even a nonfrivolous claim.” Sexton.
679 F.3d at 1157. Dropping a weak claim may be justi­
fied by “a reasonable appraisal of a claim’s dismal pro­
spects for success.” Knowles v. Mirzavance. 556 U.S.
Ill, 127 (2009). Many of the claims that Defendant
wished his appellate counsel to raise had not been
raised before the district court and so would likely

App. 50
have been waived on appeal. United States v. Cade. 236
F.3d 463,467 (9th Cir. 2000). More broadly, Defendant’s
appellate counsel could reasonably conclude that rais­
ing the entire slew of claims recommended by Defend­
ant would dilute the stronger claims. In the opening
brief, Defendant’s appellate counsel appears to have
selected the strongest claims and excised the weakest
claims with little chance of success. In fact, the omitted
claims are the ones that have been analyzed and re­
jected in this order. For this reason, too, Defendant can­
not establish prejudice even if his appellate attorney
erred in not raising these additional issues on appeal.
3. Failure to Raise Particular Issues in Peti­
tion for Rehearing
Relatedly, Defendant criticizes his appellate attor­
ney for failing to raise the same issues in a petition for
rehearing or petition for rehearing en banc. Mot. at 35.
To the extent that Defendant asserts that his appellate
attorney should have expanded upon the issues raised
in the opening brief, such a tactic would run afoul of
the general rule that the Ninth Circuit does not “con­
sider issues that a party raises for the first time in
a petition for rehearing.” United States v. Mageno,
786 F.3d 768, 775 (9th Cir. 2015) (per curiam) (citation
omitted). Moreover, Defendant’s appellate counsel could
have reasonably concluded that adding all of Defend­
ant’s desired claims would have upset any chance of a
grant of rehearing. With regard to panel rehearing,
“[t]he petition must state with particularity each point
of law or fact that the petitioner believes the court has

App. 51
overlooked or misapprehended.” Fed. R. App. P. 40(a)(2).
With regard to rehearing en banc, the standards are
even stricter. The Ninth Circuit does not usually grant
rehearing en banc unless “en banc consideration is nec­
essary to secure or maintain uniformity of the court’s
decisions” or “the proceeding involves a question of ex­
ceptional importance.” Fed. R. App. R 35(a). Thus, the
petition must state that “the panel decision conflicts
with a [Supreme Court or Ninth Circuit] decision” or
that “the proceeding involves one or more questions of
exceptional importance, each of which must be con­
cisely stated.” Fed. R. App. P. 35(b)(1). Due to these
stringent standards, Defendant also cannot show that
filing his tailor-made petition would have changed the
outcome.
In sum, Defendant has not made out a claim for
ineffective assistance of appellate counsel.
G. Invalid Superseding Indictment Claim
Defendant’s tenth claim is that his due process
rights were violated because the prosecutor never pre­
sented the superseding indictment to a grand jury.
Mot. at 36-37. According to Defendant, the prosecutor
was not before a grand jury and there was no grand
jury in session on November 24, 2009, the date of the
superseding indictment. Id. at 37-38. Defendant also
suggests that his motion to inspect the grand jury
minutes was never ruled upon. Id. at 38.
Defendant has procedurally defaulted this claim.
In a motion filed on October 13, 2010, Defendant

App. 52
argued that a grand jury had not returned the super­
seding indictment. Dkt. No. 173 at 2-5. Judge Whyte
denied that motion on November 2, 2010. Dkt. No. 209.
Similarly, Defendant requested the opportunity to in­
spect the grand jury minutes of the superseding indict­
ment in two separate motions filed on March 17, 2010
and October 19,2010, respectively. Dkt. Nos. 107 at 12,
177 at 1-3. Judge Whyte denied the first on May 24,
2010 and the second on November 2, 2010. Dkt. Nos.
132, 209. Defendant provides no explanation for why
this issue was not available on direct appeal, so the
claim is defaulted. Bouslev. 523 U.S. at 622.
Defendant cannot establish either cause or preju­
dice for the default. See Murray. 477 U.S. at 492. In
particular, Defendant’s assertion that the superseding
indictment was not returned by a grand jury is belied
by the fact that the superseding indictment was signed
by the foreperson and the prosecutor on November 24,
2009. Dkt. No. 69; see Stirone v. United States. 361 U.S.
212,215-16 (1960) (“[A]fter an indictment has been re­
turned its charges may not be broadened through
amendment except by the grand jury itself.”).
Defendant appears to seek an evidentiary hearing
regarding this claim. For example, Defendant asserts
that he will prove that one of the government’s wit­
nesses was not before the grand jury on November 24,
2009. Mot. at 37; Reply at 12 (requesting to call gov­
ernment witness to testify). Not only does that claim
lack any factual basis, but whether this particular wit­
ness was before the grand jury has no bearing on

App. 53
whether the grand jury was in session.4 Likewise, De­
fendant avers that he would prove that the prosecutor
was not before the grand jury on November 24, 2009.
Mot. at 38. Without any supporting evidence, that as­
sertion is palpably incredible because the prosecutor
signed the superseding indictment on November 24,
2009. See Dkt. No. 69. Defendant’s remaining conten­
tions (e.g., that the superseding indictment was en­
tered on the electronic docket after the court had closed
for the Thanksgiving holiday and that different fore­
persons signed the original and superseding indict­
ments) are irrelevant or equally implausible. See Mot.
at 38. Thus, the Court need not hold an evidentiary
hearing because “the motions and the files and records
of the case conclusively show that [Defendant] is enti­
tled to no relief.” 28 U.S.C. § 2255(b).
H. Vindictive Prosecution Claim
Defendant’s eleventh claim is that the prosecutor
violated Defendant’s due process rights by adding ad­
ditional charges in the superseding indictment based
on Defendant’s refusal to accept a plea deal. Mot. at
40-41. Defendant offers no explanation to overcome his
procedural default for failing to raise this available
4 Defendant also takes issue with the fact that the govern­
ment did not disclose handwritten notes that Defendant had pro­
vided to this government witness while in jail. Reply at 12.
However, Judge Whyte ruled that these notes “were provided be­
fore trial, were not offered at trial and appear to have no rele­
vance to the issues in the case.” Dkt. No. 209 at 1. Defendant also
does not show that the government violated the Jencks Act, 18
U.S.C. § 3500, by deciding not to call the witness.

App. 54
claim on direct appeal. And Defendant cannot estab­
lish prejudice because his vindictive-prosecution claim
fails on the merits.
Defendant’s allegation that the prosecutor brought
additional charges to punish him for refusing to accept
a plea bargain is insufficient to establish a due process
violation. The Ninth Circuit has held that “threatening
and then filing more severe charges as an outgrowth of
plea negotiations does not violate due process.” United
States v. Gamez-Orduno. 235 F.3d 453, 463 (9th Cir.
2000); see also Bordenkircher v. Haves. 434 U.S. 357,
363 (1978) (“[I]n the ‘give-and-take’ of plea bargaining,
there is no such element of punishment or retaliation
so long as the accused is free to accept or reject the
prosecution’s offer.”). That is so because “such prosecu­
torial conduct is not meaningfully distinguishable
from charging more strictly at the outset and then re­
ducing the charges as a result of plea negotiations.”
Gamez-Orduno. 235 F.3d at 463. Nor is there a pre­
sumption of vindictiveness in this context “simply from
the fact that a more severe charge followed on, or even
resulted from, the defendant’s exercise of a right.” Id.
at 462. A contrary rule could undermine the prosecu­
tor’s “broad discretion ... to determine the extent of
the societal interest in prosecution.” United States v.
Goodwin. 457 U.S. 368, 382 (1982). Because Defendant
identifies no evidence of vindictiveness beyond the
prosecutor’s charging decision, Defendant’s vindictive
prosecution claim fails.

App. 55
I.

Due Process Claim

Defendant’s twelfth claim is that his due process
rights were violated because four motions that he filed
pro se were removed from the docket. Mot. at 41. How­
ever, his § 2255 motion mentions only his Motion to
Dismiss for Lack of Jurisdiction and states that he has
proof that that motion was not docketed. Mot. at 41.
Specifically, Defendant says that he filed the motion at
the Clerk’s Office and then physically served copies on
the prosecutor arid the Court at a hearing on February
22,2010. Id. at 41-42. Defendant contends that his due
process rights were violated by the “deliberate removal
of the motion from the docket.” IcL at 43 (capitalization
omitted).
Defendant has not established cause and preju­
dice or a due process violation. His Motion to Dismiss
for Lack of Jurisdiction dealt with the issue whether
the charges in the superseding indictment were barred
by the statute of limitations. See Dkt. No. 313. Although
the motion was not formally entered on the electronic
docket until July 9, 2013, Judge Whyte considered and
denied the motion at a hearing on May 24, 2010. Dkt.
No. 132 (denying “all the motions to dismiss except the
motions to dismiss due to denial of speedy trial and
due process”). Defendant brought another motion to
dismiss on statute-of-limitations grounds on October
13, 2010, Dkt. No. 173, which Judge Whyte denied on
November 2, 2010, Dkt. No. 209. Defendant argued the
statute-of-limitations issue on direct appeal, and the
Ninth Circuit addressed and rejected that argument.
Dkt. No. 321 at 3. Defendant has had an adequate

App. 56
opportunity to litigate his statute-of-limitations argu­
ment and does not provide any basis to conclude that
expanding the evidentiary record, see Mot. at 43-44,
would have any effect on the outcome. Thus, Defendant
is not entitled to relief on his due process claim.
J.

Unconstitutional Sentence Claim

Defendant’s thirteenth, and final, claim is that he
was subjected to cruel and unusual punishment when
Judge Whyte sentenced Defendant to 36 months of im­
prisonment. Mot. at 44.5 Although Defendant’s Sen­
tencing Guidelines range was 21 to 27 months, Judge
Whyte departed upward from the high end of the
Guidelines range. Id. Defendant contends that this de­
parture was based purely on Defendant’s arrest record
and that Judge Whyte improperly accepted the presen­
tence report. Id. at 44-45.
Defendant does not attempt to show circum­
stances that would constitute cause for his failure to
raise this issue on direct appeal. In any event, preju­
dice is lacking because his claim is meritless. Although
the Guidelines are “the starting point and the initial
benchmark” for the sentence, a district court has broad
discretion to fashion a sentence in light of the concerns
spelled out in 18 U.S.C. § 3553(a). Pepper v. United
States. 562 U.S. 476,490 (2011) (quoting Gall v. United
5 Because Defendant has completed his entire sentence, this
constitutional challenge to his sentence is moot. Spencer. 523 U.S.
at 7. Regardless, for completeness, the Court addresses the argu­
ment here.

App. 57
States. 552 U.S. 38, 49-51 (2007)). Here, Judge Whyte
followed that rubric, explaining that an upward depar­
ture was warranted to promote deterrence and to re­
flect Defendant’s lack of remorse, prior convictions,
performance on pretrial release, and similar nature of
prior conduct. Dkt. No. 302 at 54:13-56:22. Defendant’s
contention that his sentence was motivated solely by
his prior arrest record is factually inaccurate. See Wil­
liams v. United States. 503 U.S. 193,197 (1992) (noting
that the Sentencing Guidelines “prohibit a court from
basing a departure on a prior arrest record alone”). Ac­
cordingly, the Court rejects Defendant’s claim of an un­
constitutional upward departure in sentencing.
IV. CONCLUSION
After a careful review of the record and pertinent
law, the Court concludes that Petitioner’s motion pur­
suant to 28 U.S.C. § 2255 is DENIED.
No certificate of appealability shall issue, as Peti­
tioner has not made “a substantial showing of the de­
nial of a constitutional right,” as required by 28 U.S.C.
§ 2253(c)(2). All pending motions are terminated, judg­
ment shall be entered in favor of the Government, and
the Clerk shall close the civil case associated with this
motion.
IT IS SO ORDERED.

App. 58
Dated: August 15, 2018
/s/ Edward J. Davila_________
EDWARD J. DAVILA
United States District Judge

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
UNITED STATES
OF AMERICA,
Plaintiff,

Case No. 08-cr-00560-EJD-l
CERTIFICATE
OF SERVICE

v.
HASSAN ABPIKAR,
Defendant.
I, the undersigned, hereby certify that I am an em­
ployee in the Office of the Clerk, U.S. District Court,
Northern District of California.
\
That on 8/16/2018,1 SERVED a true and correct
copy(ies) of the attached, by placing said copy(ies) in a
postage paid envelope addressed to the person(s) here­
inafter listed, by depositing said envelope in the U.S.
Mail, or by placing said copy(ies) into an inter-office de­
livery receptacle located in the Clerk’s office.
Hassan Abpikar
1509 Silver Ranch Lane
San Jose, CA 95138

App. 59
Dated: 8/16/2018
Susan Y. Soong
Clerk, United States
District Court
By:/s/ Adriana M. Kratzmann
Adriana M. Kratzmann,
Deputy Clerk to the
Honorable EDWARD J. DAVILA

